    ANNUAL ACCOUNTING AND

AUTHENTICATION OF DRUG CONTROL 

FUNDS AND RELATED PERFORMANCE

       FISCAL YEAR 2012

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


               Report 13-15

               January 2013

    ANNUAL ACCOUNTING AND AUTHENTICATION OF 

   DRUG CONTROL FUNDS AND RELATED PERFORMANCE

                 FISCAL YEAR 2012



                        EXECUTIVE SUMMARY


      This report contains the attestation review reports of the
U.S. Department of Justice’s Assets Forfeiture Fund, Criminal Division, Drug
Enforcement Administration, Federal Bureau of Prisons, Office of the Federal
Detention Trustee, Office of Justice Programs, Offices of the United States
Attorneys, Organized Crime Drug Enforcement Task Forces Program, and
United States Marshals Service’s annual accounting and authentication of
drug control funds and related performance for the fiscal year ended
September 30, 2012. The Office of the Inspector General performed the
attestation reviews. The report and annual detailed accounting of funds
obligated by each drug control program agency is required by
21 U.S.C. §1704(d), as implemented by the Office of National Drug Control
Policy Circular, Drug Control Accounting, dated May 1, 2007.

      The National Drug Intelligence Center’s (NDIC) fiscal year 2012 drug
control obligations were less than $50 million. Furthermore, NDIC
discontinued operations effective June 16, 2012. Therefore, pursuant to the
unreasonable burden exception in paragraph 9 of the Office of National Drug
Control Policy Circular, Drug Control Accounting, dated May 1, 2007, we did
not perform an attestation review of NDIC. However, we have presented
NDIC’s limited report containing its Table of Drug Control Obligations and
Performance Information within this report.

      The Office of the Inspector General prepared the attestation review
reports in accordance with attestation standards contained in Government
Auditing Standards, issued by the Comptroller General of the United States.
An attestation review is substantially less in scope than an examination and,
therefore, does not result in the expression of an opinion. We reported that
nothing came to our attention that caused us to believe the submissions
were not presented, in all material respects, in accordance with the
requirements of the Office of National Drug Control Policy Circular, and as
otherwise agreed to with the Office of National Drug Control Policy.
